CERTIFICATE OF SERVICE
NO. TBD
United States ex. rel. Laurence Schneider et al.
Petitioner(s)
v.
JP Morgan Chase Bank, Natl. Assn. et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the UNITED
STATES EX. REL. LAURENCE SCHNEIDER ET AL. PETITION FOR WRIT OF CERTIORARI, by mailing three
(3) true and correct copies of the same by USPS Priority mail, postage prepaid for delivery to the
following addresses:
Robert D. Wick
Covington & Burling LLP
One City Center
850 Tenth Street, NW
Washington, DC 20001-4956
(202) 662-5487
rwick@cov.com
Counsel for JP Morgan Chase Bank and
Other Corporate Respondents

Noel J. Francisco
Solicitor General of the United States
Department of Justice
950 Pennsylvania Ave NW, Rm. 5614
Washington, DC 20530-0001
(202) 514-2203
supremectbriefs@usdoj.gov
Counsel for United States

Lucas DeDeus

November 20, 2019
SCP Tracking: DiMarco-350 Main Street-Cover White

